o(.f 1C
No..

2o- l?1?

IN THE

SUPREME COURT OF THE UNITED STATES

FEDIE R. REDD
PETITIONER,
vs.

FEDERAL NATIONAL MORTGAGE ASSOCIATION
(FANNIE MAE), OFFICE OF THE COMPTROLLER
OF THE CURRENCY, BANK OF AMERICA, N.A.
(SUCCESSOR BY MERGER SERVICING, LP.,
r
FILED
BERKMAN, HENOCH, PETERSON, PEDDY
& FENCHEL PC, SWEENEY, GALLO, REICH,
JUa) J 6;2H
& BOLZ LLP, DAVID GALLO AND ASSOCIATES,
(QfffROE (DJFTDWE (ElUBFHS
and BRYAN CAVE LLP,
ajwwramrw
RESPONDENT(S).

ON PETITIONER FOR A WRIT OF CERTIORARI
TO UNITED STATES COURT OF APPEALS FOR THE SECOND CIRCUIT

PETITION FOR WRIT OF CERTIORARI

FEDIE R. REDD
173 CEDAR STREET
FREEPORT NEW YORK 11520
516-623-9493
Pro Se

RECEIVED
JUN 2 2 2021
OFFICE OF THE CLERK
SUPREME COURT lift*

f

TABLE OF CONTENTS
OPINIONS BELOW

8

JURISDICTION

9

CONSTITUTIONAL AND STATUTORY
10

PROVISIONS INVOLVED
11
STATEMENT OF THE CASE

12,

13, 14, 15, 16,
REASONS FOR GRANTING THE WRIT... 17,
18, 19, 20, 21, 22, 23, 24, 25, 26, 27, 28, 29
CONCLUSION

29

INDEX TO APPENDICES
APPENDIX A

Decision of the Eastern District
31-55

Court
APPENDIX B

Decision of the Second Circuit
56-58

Court of Appeals

i

TABLE OF AUTHORITIES CITED
PAGE NUMBER

CASES

City of Miami, v. Bank of America Corporation,
Bank of America, N.A., et al 800 F3d 1262 (2015) ....22, 23
24, 25
County of Cook v. Bank of America Corporation
26, 27

et al., 181 F.Supp.3d 513 (2015)
Jean Robert Saint-Jean, et al., v. Emigrant

Mortgage Company, et al., 50 F.Supp.3d 300 (2014)..28, 29
Texas Department of Housing and Community Affairs
v. Inclusive Communities Project Inc., 576 U.S. 519,
20,

(2015)
21

United States, et al. v. Bank of America Corp., et al.,
No.13-5112 (D.C. Cir. 2014,

18

STATUTES AND RULES
Article III of the Constitution

22

Fifth Amendment

12

u

10, 12,

Seventh Amendment
16

10, 12

Fourteenth Amendment
15, 21
28 U.S. § 1257

9

42 USC § 3601 Fair Housing Act (FHA) 1968

11, 12,

21, 22, 23, 27, 28
42 USC § 3601 Fair Housing Act (FHA) 1988

12, 21

42 U.S.C.A. § 3604

28

42 U.S.C.A. § 3605(a)

27

42 U.S.C.A. § 3613(a)(1)(A)

27

Title VI1 of the Civil Rights Act of 1964

20

42 USC § 1981

11, 12

42 USC § 1982

11

42 USC § 1983

11

42 USC § 1985

11, 12

New York RPAPL 1301 (3)

14

New York CPLR Rule § 3408

14

m

Fed. R. Civ. P. 12(b)(6)

27

OTHER
Color of State Law

12

IV

QUESTIONS PRESENTED FOR REVIEW

1. Did the respondents engage in the practice of
peddling subprime mortgages to unsuspecting
Black American mortgagors? Was this practice
discriminatory and did it have a disparate impact
under the Federal Housing Act of 1968, on myself
and on other unsuspecting Black Americans,
which disproportionately caused us into definite
foreclosure, and still remains the number one
public crisis in the Black American community
until this day?
The answer is Yes. The State and Federal Courts
have laid derelict in their duties to police and have
failed to uphold the property rights of Black
Americans against disparate treatment,
discrimination, and disparate impact suffered by
Black American communities during and after the
housing crisis; and have failed to make Black
Americans who suffered from this atrocity, and
crime, whole. The Courts have consistently ruled
in favor of the respondents Fannie Mae, Big Banks
1

such as, Bank of America, The Office of the
Comptroller of the Currency, and Lawyers
representing the above respondents. Especially
Big Banks. The courts have continuously found
fault with plaintiffs’ cases before the courts;
dismissing the cases and refusing to allow the
cases to a jury trial as afforded by the Seventh
Amendment of the Constitution of the United
States of America.
2. Have Black American communities across the
United States, suffer disparate treatment, and
discrimination, and disparate impact as a result of
the policies and practices, of respondents; which is
in direct conflict with the Fifth Amendment,
Fourteenth Amendment, and the Fair Housing Act
of 1968.
3. Did Countrywide Mortgage Home Loan Bank,
cause a public crisis in Black American communities
across the United States, and those who were
affected never made whole or compensated by the
Big Banks (Bank of America), Fannie Mae, Freddie
Mac, Controller of the Currency which in turn
2

main targets, and victims of these peddled subprime
mortgages to lose their homes, all credit standing,
forced into bankruptcy, forced to live in substandard
housing accommodations due to their foreclosure
status, and never made whole, in direct conflict with
the statutory and constitutional property rights of
Anglo-American civil jurisprudence “Corpus Juris
Civilis”?
The Answer is Yes, to questions two and three.
Black Americans in each and every State in the
United States, were peddled subprime mortgage
loans by Countywide Home Loan Bank. The
mortgage loans were invested through Fannie Mae
and Freddie Mac. The Controller of the Currency
knowingly approved the merger with the knowledge
and understanding that these mortgages loans were
fraudulently peddled to unsuspecting Black
Americans, still they approved the charter for
Banks to absorb these loans, and when the
payments ballooned to unaffordable amounts for
Black Americans, the Banks began foreclosure
proceedings against homeowners without even
3

owning the loans, while being given federal bailout
monies. This created a public crisis that still exists
until this day. Black American homeowners were
most times left destitute, with poor credit, forced
into bankruptcy court, and left to fend for
themselves, forced into substandard living
conditions, and left no inheritance to pass along to
their heirs. Although these cases were brought into
State Courts they lost their homes anyway. Big
Banks (Bank of America) made agreements to
identify Black American homeowners but failed to
do so. In the plaintiff s case instead of using the
money to compensate the plaintiff they hired four
different law firms, two to handle my case at the
same time, filed two Lis Pendens at the same time,
failed to notify the Court of change of Attorneys and
failed to show proof to the court that they had
properly served the plaintiff with any paperwork
concerning the referee’s oath and report. They failed
to deal in good faith, or to offer the plaintiff a loan
modification or identify, compensate, or make her
whole. They violated every rule in state Court and

4

continued to bring fraud upon the Court in Federal
Court. The lower courts have failed to intervene or
police these blatant violations of constitutional and
statutory laws.
4. Does the Federal Court have jurisdiction under
Article 111 of the Constitution of the United States
to hear, decide, interpret, review, and issue rulings
in favor of Black homeowners who have been
targeted and victimized by the Banking system, who
have not been made whole; in authorizing a class
action suit for all Black Americans who have not
been fully compensated or made whole by Fannie
Mae, Freddie Mac, Controller of the Currency, or
the Big Banks (Bank of America)?
The answer is Yes. Under Article 111 of the
Constitution of the United States of America the
Judicial Branch’s main function is to interpret and
review laws. The courts have failed to provide
protection to a whole class of people, and category of
protected Black Americans, as defined by law from a
single act of discrimination under 42 USC § 3601
Federal Housing Act of 1968, due to their sex, race,
5

and creed, and under 42 USC § 1981, 42 USC §
1982, 42 USC § 1983 and 42 USC § 1985.
The Courts have failed to police or issued any
judgment for reparations to all Black Americans
who were targeted and victimized by the
Countrywide Mortgage Home Loan Crisis which
caused irreparable harm to all Black Americans who
were peddled the subprime mortgage loan known as
the “Hustle”.

6

\

LIST OF PARTIES
B. All parties appear in the caption of the case on
the cover page.

7

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner, Fedie R. Redd, respectfully prays that a
writ of certiorari to review the judgment below.
[X] For cases from Federal courts:
The opinion of the United States court of appeals
appears at Appendix B to the petition and is
reported at Redd v. Federal National Mortgage
Asso.

The opinion of the United States district court
appears at Appendix A to the petition and is
reported at Redd v. Federal National Mortgage
Association
et al.

8

JURISDICTION
[X] For cases from Federal courts:
The date on which the United States Court of Appeals
decided my case was February 1, 2021.
[X] No petition for rehearing was timely filed in my
case.

The jurisdiction of the Court is invoked pursuant to
28 U.S. § 1257 to review the final judgment of the
United States Court of Appeals for the Second
Circuit.

9

CONSTITUTIONAL PROVISIONS AND LEGAL
PRINCIPLES INVOLVED
The Seventh amendment to the Constitution allows “suits
where the value in controversy shall exceed twenty dollars, the
right of trial by jury shall be preserved.”
The Fourteenth amendment “all persons born or
naturalized in the United States, and subject to the
jurisdiction thereof are citizens of the United States
and of the State wherein they reside. No State shall
make or enforce any law which [shall] abridge the
privileges or immunities of citizens of the United
States; nor shall any State deprive any person of life,
liberty, or property without due process of the law;
nor deny to any person within its jurisdiction equal
protection under the laws.” The principles of AngeloAmerican property law as defined under Civil Law
“Corpus Juris Civilis” and by Sir William Blackstone
x“To bereave a man of life, or violence to confiscate
his estate, without accusation or trial would be so

1 Online Line Library of Liberty. Sir William Blackstone.

10

gross and notorious an act of despotism, as must
once convey the alarm of tyranny throughout the
whole kingdom.
42 USC § 3601 Fair Housing Act (FHA) 1968
prohibits discrimination by direct providers of
housing, such as landlords and real estate companies
as well as other entities, such as municipalities,
banks or other lending institutions and homeowner’s
insurance companies whose discriminatory practices
make housing available to persons because of race or
color, religion, sex, national origin, familial status, or
disability. Texas Department of Housing and
Community Affairs v. Inclusive Communities Project
Inc., 576 U.S. 519, (2015).
42 USC § 1981,
42 USC § 1982,
42 USC § 1983
42 USC § 1985

11

STATEMENT OF THE CASE
Factual Background
On or about October 18, 2007 respondent Federal
National Mortgage Association (Fannie Mae)
invested in subprime mortgage loans through
Countrywide Home Loan program called the HighSpeed Swim Lane nicknamed the “Hustle” one of
these subprime mortgage loans was peddled to
plaintiff Fedie R. Redd. The subprime mortgage loan
was fraudulent and a defective residential mortgage
loan for $310,100.00 plus interest. This was due to
the fact that plaintiff Fedie R. Redd was an
unsuspecting Black American, and Black American
Single Female. Countrywide Home Loans peddled
this mortgage loan in breach of their fiduciary duties
and contract to the plaintiff, and in violation of the
Fifth and Fourteen Amendments, 42 USC § 3601
Fair Housing Act (FHA) 1968, 42 U.S.C § 1981, 42
U.S.C § 1983, 42 U.S.C. § 1985, and a violation under
the Color of State Law.
On October 7, 2010 Berkman, Henoch, Peterson,
Peddy, & Fenchel P.C. did knowingly commence a
12

wrongful foreclosure action against the plaintiff.
They did file falsely for index number 10-021197, in
the Nassau County Supreme Court, and after
acquiring said index number; did submit a
fraudulent summons, and complaint on behalf of
Bank of America who did not own plaintiffs Note.
The certificate of merger between Bank of America,
N.A. and Countrywide was not effective until June 28,
2011. Bank of America became owners of Plaintiffs
Note in “Blank” from the Federal National Mortgage
Association (Fannie Mae). Therefore, the power of
Attorney signed by the Federal National Mortgage
Association (Fannie Mae) did not grant Bank of
America the power to foreclose on the Plaintiffs home.
Defendant Sweeney, Gallo, Reich, & Bolz LLP AKA/
Sweeney, Gallo, Reich, & Bolz LLP, in April 2013,
fraudulently file a new summons and complaint in
the Nassau County Court and did also fraudulently
obtained index number 2013/007276 while a
foreclosure action under index number 10-021197
was already pending. They did this without Court
approval, or consent of the Nassau County Supreme

13

Court; and in violation of New York RPAPL 1301 (3).
Both Berkman, Henoch, Peterson, Peddy, & Fenchel
PC, and Sweeney, Gallo, Reich, & Bolz LLP AKA/
Sweeney, Gallo, Reich, & Bolz LLP, were in violation
of the New York CPLR Rule § 3408 when at no time
did, they hold a mandatory settlement conference
with the plaintiff in the Nassau County Supreme
Court.
On November 13, 2013 Bryan Cave was assigned to
represent Bank of America under index number
2013/007276 although the index number was
obtained fraudulently and without court approval.
On March 16, 2018 David Gallo and Associates
assumed case again under a new name different from
Sweeney Gallo, Reich, and Bolz LLP without notifying
the plaintiff, or the Court, under 2013/007276 without
court approval claiming to have served plaintiff with
the Referee’s Oath, and Report dated March 29, 2018.
The claim was fraud upon the court and fraudulent,
the plaintiff was never served with the Referee’s Oath,
and Report. Subsequently Referee Walsh never served
the plaintiff either. However, the Attorney David Gallo

14

and Associates did obtain an illegal foreclosure and
sale which was granted by the Nassau County
Supreme Court, for not answering the referee’s oath
within 30 days. Although the Plaintiff has asked the
State and Federal Courts to compel respondent David
Gallo and Associates to provide plaintiff with a copy of
the service papers she was ignored. This was egregious
a total violation of the plaintiffs constitutional rights
under the Fourteenth Amendment, “No state shall
make or enforce any law which shall abridge the
privileges or immunities of citizens of the United
States; nor shall any state deprive any person of life
liberty, or property, without due process of law; nor
deny to any person within its jurisdiction the equal
protection of the laws, and a violation of plaintiffs
rights as a member of a protected class.
Due to the blatant Federal Civil Rights violations,
disparate treatment, discrimination, and disparate
impact; levelled at the plaintiff, by the respondents
she took her case to the Federal court. However, for
most Black Americans similarly situated, the twelve
circuits have been split in their decisions, or simply

15

silent. The Federal court in plaintiffs case, refused to
deal fairly with her, or and, view plaintiffs evidence
in a light most favorable to her. Instead sided with
respondents who had not made a sufficient argument
or case; nor did the respondents produced any
contradictory evidence that would prove that the
plaintiff had not made a prima facie case. The
respondents did not submit or produced any evidence
which would have prevented plaintiff from moving
forward to trial. Alternatively, the plaintiff was
denied her day in court in violation of the Seventh
Amendment of the Constitution.

16

REASONS FOR GRANTING THE WRIT
1. Whether the Court should resolve the following
questions for which the State and Federal courts are
split (including the New York State Second Circuit
Appellate Court of last resort in this case) can Banks
rely on not being held accountable to Black
Americans who through no fault of their own were
peddled subprime fraudulent mortgages by
Countrywide mortgage loan bank? Repurchased by
Fannie Mae who signed in blank: and legitimized by
The Office of Comptroller, and subsequently upon
approval of the charter were transferred to Bank of
America for servicing. This was the process and
means by which the plaintiff and most Black
Americans who were peddled these subprime
mortgages would eventually experience disparate
treatment, discrimination, and the disparate impact
it would eventually come to unleash upon Black
American communities. It would also give rise to
boarded up and empty homes, which created
gentrification in Black American communities,
across the United States of America. Black

17

Americans were afforded no solution by the Banks.
As in plaintiffs case, she was forced to fight court
case after court case in a David v Goliath fashion.
Although she presented to the Court credible
evidence that her Constitutional rights and that
Federal and State laws had been violated, she was
continually denied and deprived of her day in court.
2. Although plaintiffs mortgage was supposed to be
identified according to the settlement agreement of
2011, made between Bank of America and Attorney
General Holder’s office in United States, et al. v.
Bank of America Corp., et al., No. 13-5112 (D.C. Cir.
2014. However, my mortgage loan was never
identified. Thereby causing further hardship, and
more harassment by Bank of America and their
attorneys. Although hundreds, if not even thousands
of documents have been written and chronicled
proving the blatant discrimination, and bias in the
subprime mortgage loan crisis concentrated against
Blacks Americans who fell prey to the predatory
lending practices of Countrywide Mortgage lenders
and their investors Fannie Mae and Freddie Mac.

18

Black Americans have been left homeless and
displaced. All the twelve Circuits have utterly failed
to make ruling regarding the question of fairness and
equity under the Fourteenth Amendment citing in
most cases lack of jurisdiction or issuing rulings
continually in the favor of the Banks. The Federal
Courts across the board have failed to directly deal
with the consequences, discrimination, displacement,
disparate treatment, and disparate impact of the
thousands of Black American families whose loans
were subprime, and who although, part of a
protected class, now have lost their homes, years of
credit worthiness, in some cases had to file for
bankruptcy, and have had to deal with seven years
or more of credit score unworthiness due to no fault
of their own. The mortgages were peddled to
unsuspecting Black Americans even with 720 or
better credit scores; the plaintiff was one, all because
of the color of her skin and her gender she was
peddled a subprime mortgage loan. This was a
Countrywide Mortgage Loan policy; it was simply
how they conducted business with Black Americans

19

although provided protected status under Title VI1
Civil Rights Act of 1964. When the subprime
mortgage crisis hit the United States of America,
Countrywide Mortgage Bank was bailed out, and not
the unsuspecting Black American borrowers. The
unsuspecting Black American borrowers were served
fraudulent Lis Pendens placed into foreclosure, and
the courts turned a blind eye, while the Black
American borrow suffered disparate treatment, and
disparate impact. This is an ongoing public crisis for
Black Americans, in the United States and the
playing field must be leveled by the United States
Supreme Court.
3. In Texas Department of Housing and Community
Affairs v. Inclusive Communities Project Inc., 576
U.S. 519 (2015) Justice Kennedy delivered the
opinion of the Court, which in a 5-4 decision held
that disparate impact claims are cognizable under
the Fair Housing Act. Justice Kennedy began his
analysis by reviewing the historic development of
disparate impact claims in Federal law and
concluded that Congress specifically intended to

20

include disparate impact liability in a series of
amendments to the Fair Housing Act that were
enacted in the year 1988. Justice Kennedy also
argued that recognition of disparate-impact liability
under the FHA also plays a role in uncovering
discriminatory intent: It permits plaintiffs to
counteract unconscious prejudices and disguised
animus that escape easy classification as disparate
treatment. Even though the selling and dumping of
all the Countrywide subprime mortgage home loans
into “reputable lenders” was supposed to help
American homeowners hit by the crisis, it caused
nothing but grief and misery to Black homeowners.
Black homeowners were instead met with disparate
treatment in obtaining loan modifications, even after
their subprime home loans ballooned way out of the
controlled repayment terms or were found to have
burdensome repayment terms. It was a scam,
perpetrated against Black Americans. It was a
violation of Black Americans Fourteenth Amendment
Rights. Also, a violation of Federal and State laws,
committed against Black American borrowers.

21

4. In City of Miami, v. Bank of America
Corporation, Bank of America, N.A., et al 800 F3d
1262 (2015) the Court found that disparate
treatment existed: adopting in part: (1) city
adequately alleged an injury in fact from lender’s
allegedly discriminatory lending; (2) city sufficiently
alleged a plausible chain of causation from lender’s
allegedly discriminatory lending; (3) term “aggrieved
person” in the Fair Housing Act (FHA) sweeps as
broadly as allowed under Article III; (4) in a matter
of apparent first impression, proper standard for
proximate causation on a FHA claim is based on
foreseeability; (5) city adequately alleged that harm
to city was reasonably foreseeable; (6) city failed to
allege that city conferred a direct benefit onto lender
to which they were not otherwise legally entitled.
The complaint accused Bank of America of engaging
in both “redlining” and “reverse redlining.”
Redlining, the practice of refusing to extend
mortgage credit to minority borrowers on equal
terms as to non-minority borrowers. Reverse
redlining is the practice of extending mortgage credit

22

on exploitative terms to minority borrowers. The City
also alleged that the Bank engaged in a vicious cycle:
first it “refused to extend credit to minority
borrowers when compared to white borrowers,” then
“when the bank did extend credit, it did so on
predatory terms. When minority borrowers then
attempted to refinance their predatory loans, they
discovered that the Bank refused to extend credit at
all, or on terms equal to those offered to white
borrowers. The City said that the Bank’s conduct
violated the Fair Housing Act in two ways. First, the
City alleged that the Bank intentionally
discriminated against minority borrowers by
targeting them for loans with burdensome terms.
Second, the City claimed that the Bank’s conduct had
a disparate impact on minority borrowers, resulting
in a disproportionate number of foreclosures on
minority-owned properties, and a disproportionate
number of exploitative loans in minority
neighborhoods.
5. In too many cases the Federal Courts have cited
the same justifications and reasoning, lack of
23

jurisdiction, lack of personal jurisdiction, Failure to
state a claim, among some of the excuses. Taking the
easy way out. So as not to deal with the cases period.
The Federal Courts dismisses the cases and send
them back to the State Courts who have never had
the ability to rule equitably in favor of the Black
American plaintiffs who fell victim to the subprime
mortgage loan scam. This is a Federal crisis in which
no State has the adequate skill set to deal with
Banks that are Federally operated, insured, and
governed and only operate in states to lure
unsuspecting Black American customers to
perpetuate their greed. The City claimed that this
pattern of providing more onerous loans is evident
among Black Americans. Those containing more risk,
carrying steeper fees, and having higher costs to
Black American borrowers as compared to White
American borrowers of identical creditworthiness;
manifested itself in the Bank’s retail lending pricing,
its wholesale lending broker fees, and its wholesale
lending product placement. It also averred the
Bank’s internal loan officer compensation system

24

encouraged its employees to give out these types of
loans even when they were not justified by the
borrower’s creditworthiness. The City claimed that
Bank of America’s practice of redlining and reverse
redlining constituted a “continuing and unbroken
pattern” that persists to this day. Among other
things, the City employed statistical analyses to
draw the alleged fink between the race of the
borrowers, the terms of the loans, and the
subsequent foreclosure rate of the underlying
properties. Drawing on data reported by the Bank
about loans originating in Miami from 2004^2012,
the City claimed that a Bank of America loan in a
predominantly (greater than 90%) minority
neighborhood of Miami was 5.857 times more likely
to result in foreclosure than such a loan in a
majority-white neighborhood. According to the City’s
regression analysis (which purported to control for
objective risk characteristics such as credit history,
loan-to-value ratio, and loan-to-income ratio), a Black
American, Bank of America borrower in Miami was
1.581 times more likely to receive a loan with

25

“predatory” features4 than a White borrower, and a
Latino borrower was 2.087 times more likely to
receive such a loan. Moreover, Black American, Bank
of America borrowers with FICO scores over 660
(indicating good credit) in Miami were 1.533 times
more likely to receive a predatory loan than White
borrowers, while a Latino borrower was 2.137 times
more likely to receive such a loan.
6. In United States District Court, N.D. Illinois,
Eastern Division. County of Cook v. Bank of America
Corporation et al., 181 F.Supp.3d 513 (2015) The
Court held that the date on which county discovered
the basis of its Fair Housing Act (FHA) claims
against mortgage lender for its alleged practice of
charging African American and Hispanic borrowers
discriminatory fees and costs during the servicing of
home loans, for determining whether
claim was brought within two-year statute of
limitations period, was an issue that could not be
decided on motion to dismiss; evidentiary submission
was required since allegations in the complaint did
not affirmatively show whether the county knew or

26

should have known during limitations period
applicable to last discrete home loan decision that
95,000 home loans signed by minority borrowers
contained discriminatory terms, and conditions since
county claimed that lender was continuing its
discriminatory practices. 42 U.S.C.A. §
3613(a)(1)(A); Fed. R. Civ. P. 12(b)(6). Where a
plaintiff, pursuant to the Fair Housing Act (FHA),
challenges not just one incident of conduct violative
of the Act, but an unlawful practice that continues
into the limitations period, the complaint is timely
when it is filed within two years of the last asserted
occurrence of that practice. 42 U.S.C.A.
§ 3613(a)(1)(A).
7. Fair Housing Act (FHA) makes it unlawful for any
person or other entity whose business includes
engaging in residential real estate-related
transactions to discriminate against any person in
making available such a transaction, or in the terms
or conditions of such a transaction, because of race.
42 U.S.C.A. § 3605(a). County's disparate impact
claim against mortgage lender, claiming that

27

lender engaged in a variety of practices that
allegedly had a disparate impact on Black American
and Hispanic borrowers, was cognizable under Fair
Housing Act (FHA) and identified specific practices
that allegedly caused minority borrowers to receive a
disproportionate share of high-cost home loans. 42
U.S.C.A. § 3604.
The County alleges that Defendants targeted
minority borrowers and made approximately 95,000
home loans with less favorable terms and
conditions than loans made to similarly situated
White borrowers. Twelve Civil Rights County's
allegations that mortgage lender targeted minority
borrowers and steered them into more expensive
home loans with a higher risk of default than loans
made to similarly situated White borrowers were
sufficient to state a plausible disparate treatment
claim under provision of Fair Housing Act (FHA)
governing discrimination in real estate transactions.
42 U.S.C.A. § 3605(a).
8. In the case of Jean Robert Saint-Jean, et al., v.
Emigrant Mortgage Company, et ah, 50 F.Supp.3d

28

300 (2014). Under Federal law, where a plaintiff can
demonstrate fraudulent concealment, a defendant is
equitably estopped from asserting a statute of
limitations defense with respect to those claims. A
bank was equitably estopped from asserting a
statute of limitations defense to homeowners’ claims
that the bank violated the New York State Human
Rights Law, where the homeowners credibly alleged
that the bank’s conduct was calculated to mislead
and the homeowners relied on it, and the failure to
raise the claims earlier was not attributable to a lack
of due diligence.
Conclusion
The petition for a writ of certiorari should be granted.

Entered in this action on the
Sworn to before me on
this
day of June 2021

day of June 2021
Respectfully submitted,

Signature
Notary Public

t/,
CHRISTOPHER JOHN DOLAN
NOTARY PUBLIC - STATE OF NEW YORK
NO. 01D06411806
QUALIFIED IN NASSAU COUNTY
COMMISSION EXPIRES 12/07/2024

A htoC&

Fedie R. Redd-Pro se
173 Cedar Street
Freeport New York 11520
516-623-9493
29

I Fedie R. Redd, certify that this Writ of Certiorari contains
4860 words or less.

Entered in this action on the
Sworn to before me on
this
day of June 2021

day of June 2021
Respectfully submitted,

Signature
Notary Public

IrEhif

- faoCz

Fedie R. Redd-Pro se
173 Cedar Street
Freeport New York 11520
516-623-9493

CHRISTOPHER JOHN DOLAN
NOTARY PUBLIC - STATE OF NEW YORK
NO. 01DO6411806
QUALIFIED IN NASSAU COUNTY
COMMISSION EXPIRES 12/07/2024

30

